No. ________

In the Supreme Court of the United States
JIMMIE EUGENE WHITE, II,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI

To the Honorable Sonia Sotomayor, Associate Justice of the United States
Supreme Court and Circuit Justice for the United States Court of Appeals for the
Sixth Circuit:
1.

Pursuant to Supreme Court Rule 13.5, petitioner Jimmie Eugene White,

II respectfully requests a 59-day extension of time, until Friday, November 1, 2019,
within which to file a petition for a writ of certiorari. The United States Court of
Appeals for the Sixth Circuit issued its opinion on April 10, 2019. A copy of the
opinion is attached. The Sixth Circuit denied petitioner’s rehearing petition on June
5, 2019. A copy of the order is attached. This Court’s jurisdiction would be invoked
under 28 U.S.C. § 1254(1).

1

2.

Absent an extension, a petition for a writ of certiorari would be due on

September 3, 2019. This application is being filed more than 10 days in advance of
that date, and no prior application has been made in this case.
3.

This case concerns whether, and under which provisions, time may be

excluded under the Speedy Trial Act based on the parties’ stipulation that they are
engaged in plea bargaining. Here, petitioner’s counsel and the government stipulated
that a period between petitioner’s arrest and indictment should be excluded. The
magistrate judge accepted the stipulation without explanation, stating simply that
“good cause” exists for the continuance. The district court held that the exclusion of
time was proper because petitioner and the government “agreed that the time period
should be enlarged” and the “parties [were] engaged in plea bargaining.” In 2017, the
Sixth Circuit affirmed on the sole basis that under then-circuit precedent, time
periods during which the parties are engaged in plea negotiations are automatically
excludable under 18 U.S.C. § 3161(h)(1). United States v. White, 679 F. App’x 426
(6th Cir. 2017).
4.

Petitioner filed a petition for a writ of certiorari, and the United States

conceded that then-Sixth Circuit precedent regarding the automatic excludability of
plea bargaining time was inconsistent with this Court’s decision in Bloate v. United
States, 559 U.S. 196 (2010). On January 8, 2018, this Court granted the petition,
vacated the Sixth Circuit’s judgment, and remanded “for further consideration in
light of the confession of error by the Solicitor General.” Order, White v. United
States, 138 S. Ct. 641, No. 17-270.

2

5.

The parties submitted supplemental briefing to the Sixth Circuit on

remand regarding the effect of Bloate and whether, alternatively, the time at issue
was excludable under the Speedy Trial Act’s ends-of-justice exception, 18 U.S.C.
§ 3161(h)(7). That provision “permits a district court to grant a continuance and to
exclude the resulting delay if the court, after considering certain factors, makes onthe-record findings that the ends of justice served by granting the continuance
outweigh the public’s and the defendant’s interests in a speedy trial.” Zedner v.
United States, 547 U.S. 489, 498–99 (2006) (emphases added). It “gives the district
court discretion—within limits and subject to specific procedures—to accommodate
limited delays for case-specific needs.” Id. at 499 (emphasis added). As this Court
has emphasized, the “strategy of [the ends-of-justice exception] . . . is to counteract
substantive openendednesss with procedural strictness. This provision demands onthe-record findings and specifies in some detail certain factors that a judge must
consider in making those findings.” Id. at 509 (emphases added).
6.

Despite the absence of any on-the-record findings in this case, in an

opinion issued on April 10, 2019, a divided Sixth Circuit panel again affirmed
petitioner’s conviction. United States v. White, No. 16-1009, slip op. (Apr. 10, 2019).
The court first held, unanimously, that this Court’s decision in Bloate abrogated prior
circuit precedent regarding the automatic exclusion of plea-bargaining time. Id. at 2.
However, two members of the panel, constituting the majority, held that
notwithstanding any error with respect to the automatic excludability of plea
bargaining time, the time at issue was excludable under the ends-of-justice exception,

3

and petitioner’s conviction should be affirmed on that basis. Id. at 8–12; id. at 14
(Guy, J., concurring in part and in the judgment). The majority reasoned that the
parties’ stipulation, which did nothing more than recite the statutory language that
“the ends of justice served by a continuance outweigh the interests of the public and
the defendant in a speedy trial,” together with the “surrounding context,” was
sufficient to support an ends-of-justice exclusion. In dissent, Judge Clay found that
“the majority’s reasoning is inconsistent with Supreme Court . . . precedent.” Id. at 15
(Clay, J., concurring in part and dissenting in part) (emphasis added).
7.

Judge Clay is correct. The Sixth Circuit majority’s opinion is contrary

to well-established precedent from this Court and effectively eviscerates the statutory
requirement that a district court make express on-the-record findings, after
considering certain factors, in order to exclude time under the ends-of-justice
exception. This Court has been clear: “without the on-the-record findings, there can
be no exclusion.” Zedner, 547 U.S. at 507. But there were no findings here, and yet,
the majority found a proper exclusion. The majority’s decision also deepens a circuit
split regarding the excludability of time under the ends-of-justice exception based on
a stipulation between the parties.
8.

The issues in this case are significant. Left undisturbed, the Sixth

Circuit’s decision will have a profound impact on federal criminal prosecutions, given
that issues concerning the excludability of plea bargaining time arise constantly in a
system in which 90 to 95 percent of convictions arise from guilty pleas. U.S. Dep’t of

4

Justice, Bureau of Justice Statistics, Plea and Charge Bargaining, Research
Summary 1 (2011), http://bja.gov/Publications/PleaBargainingResearchSummary.pdf.
9.

Petitioner respectfully requests an extension of time to file a petition for

a writ of certiorari. A 59-day extension would allow counsel sufficient time to fully
research and analyze the issues presented and to prepare the petition for filing. In
addition, undersigned counsel has a number of other pending matters that will
interfere with counsel's ability to file the petition on September 3, 2019.
10.

Respondent does not object to this request.

Wherefore, petitioner respectfully requests that an order be entered extending
the time to file a petition for a writ of certiorari to November 1, 2019.
August 22, 2019

Respectfully submitted,

R. St ton Jones
Counsel of Record
Christian D. Sheehan
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave. NW
Washington, DC 20001
(202) 942-5000
stanton.jones@arnoldporter.corn
Counsel for Petitioner
5

